Department of Homeland Security
   2IÀFHRI,QVSHFWRU*HQHUDO


DHS Contracts Awarded Through Other Than Full and Open

          Competition During Fiscal Year 2007





OIG-09-94                                    August 2009
Table of Contents/Abbreviations 


Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................5


    DHS Procurement Practices............................................................................................5 

    Reporting on DHS Procurement Activities...................................................................13 

    Recommendations.........................................................................................................16

    Management Comments and OIG Analysis .................................................................17 


Appendixes
   Appendix A: Purpose, Scope, and Methodology..........................................................22 

   Appendix B: Management Comments to the Draft Report ..........................................24 

   Appendix C: Federal Acquisition Regulation Approval Requirements for Justifying 

               the Use of Other Than Full and Open Competition................................48 

   Appendix D: Summary of Deficiencies With Procurement Activities.........................49 

   Appendix E: Major Contributors to this Report ...........................................................50 

   Appendix F: Report Distribution ..................................................................................51 


Abbreviations
     DHS                         Department of Homeland Security 

     FAR                         Federal Acquisition Regulation 

     FPDS-NG                     Federal Procurement Data System-Next Generation 

     OCPO                        Office of the Chief Procurement Officer 

     OIG                         Office of Inspector General 





                      DHS Contracts Awarded Through Other Than Full and Open Competition 

                                           During Fiscal Year 2007 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   In fiscal year 2007, the Department of Homeland Security
                   obligated $3.1 billion for procurements awarded through other than
                   full and open competition. Our review of 82 noncompetitive
                   procurements with a reported value of more than $417 million
                   showed that 70 were not awarded according to federal regulations.
                   Awards were missing or did not have adequate documentation
                   showing compliance with departmental or federal acquisition
                   regulations. Further, procurement files did not always contain
                   proper written justifications, were not always approved by the
                   appropriate official, did not always contain sufficient evidence of
                   market research or adequate acquisition planning, and did not
                   always reflect the amount of competition that actually took place.
                   We also reviewed 38 competitive procurements valued at $348
                   million to determine whether those procurements were
                   appropriately awarded as reported in the Federal Procurement Data
                   System-Next Generation. Similar to the noncompetitive
                   procurements, 21 of these were not awarded according to federal
                   regulations.

                   These practices occurred because the department did not have
                   adequate policies, procedures, controls, or resources to ensure
                   procurements were carried out as required. As a result, the
                   department cannot ensure that it received the best possible value on
                   these acquired goods and services.

                   Additionally, the Department of Homeland Security did not
                   effectively use the Federal Procurement Data System-Next
                   Generation to ensure contract data was complete and accurate.
                   This system is the only consolidated information source for
                   analyzing competition on procurements and is relied on for
                   reporting to the public and Congress. Without effective controls to
                   ensure that personnel enter complete and reliable contract data, the
                   department is unable to report competition statistics accurately.

                   The Department of Homeland Security’s Acting Chief
                   Procurement Officer concurred with all seven recommendations in
                   the report and will use them to strengthen policies, procedures, and
                   controls for procuring goods and services.

           DHS Contracts Awarded Through Other than Full and Open Competition 

                                During Fiscal Year 2007 


                                         Page 1
Background
                The Competition in Contracting Act of 1984 requires, with limited
                exceptions, that contracting officers promote and provide for full
                and open competition in soliciting offers and awarding United
                States government contracts. The Federal Acquisition Regulation
                (FAR) was established to codify uniform policies for acquiring
                supplies and services by executive agencies.

                The Office of the Federal Procurement Policy within the Office of
                Management and Budget plays a central role in shaping the
                policies and practices that federal agencies use to acquire the goods
                and services they need to carry out their responsibilities. The
                office employs several tools to collect, develop, and disseminate
                government-wide procurement data for use by federal agencies and
                the general public, the most significant being the Federal
                Procurement Data System-Next Generation (FPDS-NG). FPDS­
                NG measures various elements of procurement performance,
                including funds obligated and the extent of competition. The
                Office of Federal Procurement Policy requires that executive
                agencies annually certify that the data they enter into FPDS-NG is
                valid and complete.

                Competition is desirable because it can result in timely delivery of
                quality products and services at reasonable costs. It encourages
                contractors to offer best value proposals for meeting mission needs
                and requirements when bidding on federal contracts, thereby
                reducing costs and protecting the interests of taxpayers. According
                to the FAR, “best value” is the expected outcome of an acquisition
                that, in the government’s estimation, provides the greatest overall
                benefit in response to a requirement. Competition also discourages
                favoritism by leveling the playing field for contract competitors
                and curtailing opportunities for fraud and abuse. In May 2008, the
                Office of Management and Budget reported that federal agencies
                benefited from the use of competitive sourcing with an estimated
                net savings of approximately $7.2 billion on competitions
                completed in fiscal years 2003 through 2007.

                At the Department of Homeland Security (DHS), noncompetitive
                contracting has grown from $655 million in fiscal year 2003 to
                $3.1 billion during fiscal year 2007, accounting for approximately
                25% of all contract dollars awarded during the year.

                The following entities within DHS have a role in managing these
                procurements:

        DHS Contracts Awarded Through Other Than Full and Open Competition 

                             During Fiscal Year 2007 


                                      Page 2
        x    The Office of the Chief Procurement Officer (OCPO)— DHS
             Management Directive 0784, dated December 19, 2005,
             places responsibility on this office for ensuring the integrity of
             all acquisitions that support DHS. The office provides
             policies, procedures, guidance, and training to the
             department’s acquisition workforce. The office also oversees
             the acquisition of contracted goods and services for DHS
             through several entities, such as the Acquisition Oversight and
             Strategic Support Branch, the competition advocates, and
             heads of contracting activity.

        x	   The Acquisition Oversight and Strategic Support Branch—
             Within this branch, a staff of 15 employees conducts oversight
             to verify the integrity of the acquisition practices of DHS and
             its components. This branch also provides acquisition
             training, offers consultation services for DHS contracting
             personnel, and serves as external audit liaison on acquisition-
             related topics. The Acquisition Oversight Team, which
             accounts for less than half of the branch’s 15 positions, is
             responsible for reviewing procurements within specified
             thresholds to ensure compliance with applicable regulations
             and policies.

        x	   The DHS competition advocate is responsible for promoting
             full and open competition; promoting acquisition of
             commercial items; and removing barriers to full and open
             competition, such as unnecessarily restrictive statements of
             work, overly detailed specifications, and burdensome contract
             clauses. The competition advocate must submit an annual
             report to the Chief Procurement Office on the components’
             procurement activities.

        x	   Heads of contracting activity directly manage the acquisition
             functions of their respective components. They execute
             acquisition programs by providing all of the necessary
             resources, facilities, and infrastructure for the acquisition
             process. The heads of contracting activity also provide
             acquisition data and lessons learned to the Chief Procurement
             Officer for wider distribution within DHS.

        x    Contracting officers are responsible for many of the activities
             leading up to an acquisition for goods or services including:
             ensuring that sufficient funds are available for obligation,

DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 3
             requesting offers from as many potential sources as
             practicable, certifying that all required justifications and
             approvals are accurate for awarding contracts
             noncompetitively, and determining that the anticipated cost
             will be fair and reasonable to the government. Contracting
             officers must provide input to the acquisition plan including:
             the type of contract to be used, procurement milestones, and
             set-aside considerations. Contracting officers are also
             responsible for timely and accurate reporting of procurement
             data to the FPDS-NG.

        x	   Program managers within DHS are empowered to make final
             scope of work, capital investment, and performance
             acceptability decisions, and are responsible for accomplishing
             program objectives or production requirements through the
             acquisition of in-house, contract or reimbursable support
             resources, as appropriate. The program manager’s duties
             include developing and updating the acquisition plan,
             coordinating with other personnel responsible for significant
             aspects of the plan, obtaining applicable concurrences, and
             forwarding the plan through the approval process.

        On December 26, 2007, the President signed into law as Public
        Law 110-161, the Consolidated Appropriations Act, 2008,
        Division E—Department of Homeland Security Appropriations.
        Section 539 directs the OIG to review the department’s contracts
        awarded during fiscal year 2007, through other than full and open
        competition, to determine compliance with applicable laws and
        regulations. To meet the requirements of this legislative mandate,
        we reviewed selected DHS component procurement files for
        contracts awarded during fiscal year 2007 through other than full
        and open competition to determine whether all required
        justifications and other elements and were approved at the
        appropriate level. We also reviewed DHS policies, procedures,
        and management controls to determine whether acquisitions were
        appropriately awarded and accurately reflected the extent of
        competition that took place.




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 4
Results of Audit
     DHS Procurement Practices

           We reviewed 82 DHS procurement files awarded during fiscal year 2007
           through other than full and open competition. Our analysis of the files
           showed that 70 had missing or inadequate documentation to show
           compliance with departmental or federal acquisition regulations. These
           procurements did not always contain proper written justifications, were
           not always properly justified or approved, did not always have sufficient
           evidence of market research or adequate acquisition planning, and did not
           always reflect the amount of competition that actually took place.

           We also reviewed 38 files of competitive procurements from fiscal year
           2007 to determine whether those procurements were appropriately
           awarded as reported in FPDS-NG. Similar to the noncompetitive
           procurements, 21 of the competed awards had missing or inadequate
           documentation to show compliance with departmental or federal
           acquisition regulations. These competed awards did not always have
           sufficient evidence of market research or adequate acquisition planning
           documentation, and did not always reflect the extent of competition that
           actually took place.

           These practices occurred because the department did not have adequate
           policies, procedures, controls, and resources to ensure procurements were
           carried out as required. As a result, DHS could not ensure that it was
           appropriately using less than full and open competition contracting actions
           and receiving the best possible value on these goods and services it
           acquired using this contracting method.

                   Noncompetitive Procurement Justification and Approval

                   Although competition is the preferred method of acquisition within
                   the DHS, FAR 6.3 permits the following circumstances for other
                   than full and open competition:

                       x   Only one responsible source and no other supplies or
                           services to satisfy agency requirements;
                       x   Unusual and compelling urgency;
                       x   Industrial mobilization; engineering, developmental, or
                           research capability; or expert services;
                       x   International agreement;
                       x   Authorized or required by statute;
                       x   National security; and

           DHS Contracts Awarded Through Other Than Full and Open Competition 

                                During Fiscal Year 2007 



                                         Page 5
                                 x   Public interest.

                            The FAR requires that any agency contracting officer who
                            approves the acquisition of
                            goods or services through other   Figure 1. Exceptions to Written Justification
                                                              and Approval Requirement for
                            than full or open competition     Noncompeted Procurements
                            provide written justification.
                            The justification must have the   1: Agency need for a brand name commercial
                                                              item for authorized resale.
                            proper approvals from the
                            appropriate authority based on an 2: Acquisition from qualified nonprofit
                                                              agencies for the blind or other severely
                            established dollar threshold.     disabled.
                            Depending upon the dollar
                                                              3: Sole source awards under the 8(a) Program.1
                            amount of the acquisition, the
                            justification approval            4: When a statute expressly requires that the
                                                              procurement be made from a specified source.
                            requirements may vary as shown
                                                              5: Sole source acquisitions with an estimated
                            in Appendix C. For                value equal to or less than $100,000 that qualify
                            procurements that require written under the FAR test program for certain
                            justification, the contracting    commercial items.
                            officer must sign to certify that 6: U.S. Coast Guard is exempt from the
                            the information is complete and   requirement for written justifications and
                                                              approvals for contracts awarded citing
                            accurate. As shown in figure 1,   international agreement.
                            FAR allows some exceptions to
                                                              Source: FAR Subpart 6.302-4(c); 6.302­
                            the requirement for written       5(c)(2); and 13.501(a)(1)
                            justification for noncompeted
                            procurements.

                            We reviewed 82 noncompetitive procurements from fiscal year
                            2007 with an estimated value of more than $417 million. Although
                            53 of the noncompetitive procurements required justification and
                            written approval, this was not properly done for 18 of the awards.
                            For example,

                            x	    Three noncompetitive procurements did not have the required
                                  written justifications. One procurement, involving
                                  maintenance and support of a geographic inventory system
                                  valued at $142,713, was not supported by the required written
                                  justification. Neither the contracting officer nor the contract
                                  specialist was still employed by the component, precluding
                                  additional follow up.


1
  The Small Business Administration 8(a) Program, named for a section of the Small Business Act, is a business
development program created to help small disadvantaged businesses compete in the American economy and access
the federal procurement market. Participants are given preferential treatment in federal contracting.


                  DHS Contracts Awarded Through Other Than Full and Open Competition 

                                       During Fiscal Year 2007 



                                                     Page 6
        x    Ten justifications did not contain sufficient facts and rationale
             to support awarding procurements through other than full and
             open competition. Also, the justifications for two of these
             actions were not approved by the appropriate officials.

        x    Seven justifications were not approved by the appropriate
             officials. For example, an award to accommodate a training
             session, valued at $242,847, was not competed citing the
             FAR’s “Urgency” exception. Although a written justification
             was prepared, the document was not approved. The
             contracting officer indicated that the award was not competed
             because of a lack of advance notification for the requirement.
             According to FAR subpart 6.301(c)(1), “contracting without
             providing for full and open competition shall not be justified
             on the basis of a lack of advance planning.”

        Sole Source Awards Under the 8(a) Program

        Of the 82 noncompetitive procurements from fiscal year 2007 that
        we reviewed, 18 did not require written justification because they
        were awarded under the Small Business Administration 8(a) sole
        source program exception listed in figure 1. One of the 18
        procurements was noncompliant with FAR regulations for
        competition among 8(a) firms and another appeared to circumvent
        requirements.

        One of these awards was an indefinite delivery procurement of
        recruitment advertising services valued at $12 million and was
        listed in FPDS-NG as not available for competition. The initial
        award was made on May 31, 2007, at a value of $0.01. On June 4,
        2007, a delivery order for $4 million was issued under this
        procurement, exceeding the $3.5 million threshold in the FAR
        above which competition among 8(a) firms is required. According
        to the Acquisition Plan and other documentation dated April 2007
        in the procurement file, there were indications that project costs
        were expected to exceed the threshold. Contract staff said that
        they held meetings with several 8(a) firms where the firms gave
        presentations on their ability to provide the required services.
        However, the contract staff could not provide supporting
        documentation on how the 8(a) firms’ proposals were evaluated.

        In the second instance, also involving an indefinite delivery,
        indefinite quantity procurement, the component may have avoided
        competition among 8(a) firms. The FAR prohibits separating into

DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 7
        smaller segments an 8(a) requirement with an estimated value
        exceeding the competitive threshold. This procurement for
        acquisition support services in 2007 was estimated at $3,498,500,
        just under the $3.5 million competitive threshold in the FAR.
        There was nothing in the file to show how this estimate was
        determined; however, documentation in the file indicated that
        efforts were intentionally made to keep the amount just under the
        competitive threshold. This suggests that there may have been an
        aversion to competition. Documentation in the contract file
        indicated that the need for administrative and acquisition contract
        support was an ongoing requirement. Thus DHS awarded another
        contract for these support services to the same vendor in fiscal year
        2008 and plans to do likewise in 2009. DHS officials were unable
        to produce the original Advance Acquisition Plan for this
        procurement. During the audit we brought this matter to the
        attention of component management for review and possible
        further action.

        As of August 2008, the acquisition oversight and strategic support
        branch had a limited staff of 5 of 8 available positions to fulfill its
        responsibility for oversight of the department components’
        procurement practices to ensure that they complied with applicable
        requirements. To its credit, the branch increased the size of its
        staff to 15 filled positions as of April 2009. The branch Director
        noted that the staff were not only responsible for oversight, but
        also for collateral duties such as serving as liaison to support
        acquisition audits by external entities, and providing training and
        consultation to contract staff on pricing contracts. For these
        reasons, the acquisition oversight and strategic support branch did
        not sufficiently assess DHS’ competition practices. Although
        Management Directive 0784 suggests that OCPO review pre and
        post award documentation, there is no requirement on the coverage
        of oversight needed to ensure compliance. As of a report provided
        in March 2009, the branch has completed nine program
        management reviews for the DHS components.

        Given the prior oversight limitations combined with the staff’s
        competing duties, some contracts may have been awarded quickly
        to meet organizational needs. For example, one procurement for
        $208,095 was awarded to provide radio advertising for a
        recruitment initiative. The contracting officer approved the
        noncompetitive justification on July 30, 2007, after the funds had
        been awarded on July 24, 2007.



DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 8
        The risk that expediency could take priority over how goods and
        services are acquired within DHS may still exist. One contracting
        officer described difficulties in keeping up with frequent
        acquisition procedural changes while being responsible for
        managing contract staff at different geographic locations. As a
        result, the individual acknowledged that they could pay closer
        attention to the documentation in the files. Another DHS
        contracting official stated that “shortcuts are taken to get the job
        done.”

        The lack of justifications and approvals for noncompetitive
        procurements can be attributed to the challenges DHS faced with
        maintaining the acquisition workforce. DHS has had difficulties
        growing and retaining an experienced acquisition workforce.
        Department officials discussed having an insufficient number of
        contract specialists, overburdened acquisition staff, and high
        turnover rates. DHS officials also expressed concerns about
        maintaining an experienced, knowledgeable workforce and
        ensuring that employees keep up with frequent changes in
        acquisition regulations. According to DHS officials, the recent
        submission of the Acquisitions Workforce Human Capital and
        Succession Plan to the Office of Management and Budget will
        address the retention and recruitment challenges.

        The inconsistent use of procurement checklists to ensure contract
        file maintenance may have also contributed to noncompliance with
        procurement requirements. Some component files contained
        checklists that had incomplete fields or incorrect references to
        support award decisions. As a result, contract activities and files
        were often disorganized or incomplete, making it difficult or
        impossible to determine whether or not the noncompetitive
        procurements were justified. For example, two procurement files
        had to be reconstructed because contract personnel were unable to
        locate the original files.

        Without proper justification, written approvals, and oversight,
        DHS increases the risk that inappropriate procurements are being
        awarded. DHS also cannot be certain that alternative contractors
        were considered for its procurements through full and open
        competition. Ultimately, the department had no assurance that it
        was receiving the best possible value on these acquired goods and
        services.




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 9
        Market Research

        Many of the noncompetitive procurement files we reviewed for
        fiscal year 2007 did not contain sufficient evidence that market
        research was performed as required by
        the FAR. FAR Part 10 requires agencies          The FAR defines market
                                                        research as collecting
        to conduct market research before (1)           and analyzing information
        developing new requirements documents           about capabilities within
        for an acquisition, and (2) soliciting offers 
 the market to satisfy
        for an acquisition that exceeds $100,000, 
 agency needs.
        is less than $100,000 when adequate information is not available 

        and circumstances justify the cost, or could lead to a bundled 

        contract. Market research should be conducted to ensure that the 

        government is procuring goods and services at reasonable costs, 

        regardless of the status of competition. 


        We identified deficiencies with market research for 57 of the 69 

        fiscal year 2007 noncompetitive procurements we reviewed that 

        required such research. Some procurements did not provide 

        sufficient evidence that market research was performed before 

        awarding the funds. We noted that: 


             x	 Eleven procurement files did not contain evidence that
                market research was conducted, as required.

             x	 For the remaining 46 noncompetitive procurements,
                market research was summarized or mentioned in the files.
                However, the procuring agencies could not provide
                sufficient documentation to support the summaries or
                activities conducted. For example, one procurement
                valued at $2,942,325 for management and consulting
                services contained no documentation supporting that
                market research had been conducted. Although market
                research was mentioned in one report in the file, the file
                contained no documentation to show that it had been done.

        The FAR and the Homeland Security Acquisition Regulation
        provide limited guidance on the extent of market research that
        agencies must conduct and document with procurements. The
        guidance requires agencies to conduct market research, but it does
        not require that they validate and maintain supporting
        documentation or assign responsibility to specific personnel. This




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 10
        allows personnel to apply market research requirements
        inconsistently.

        For example, there were differing opinions among DHS contract
        staff on whether posting acquisition requirements to FedBizOpps
        constitute adequate market research. FedBizOpps is the single,
        government-wide point-of-entry for federal government
        procurement opportunities greater than $25,000. Government
        buyers can publicize their business opportunities by posting
        information directly. Some component contract staff noted that
        this system may be used for market research. Other contract staff
        disagreed and commented that “market research is part of the
        planning phase of an acquisition. Posting a solicitation on
        FedBizOpps is part of the solicitation phase.”

        Further, as previously noted, DHS had insufficient oversight
        resources to ensure that departmental components conducted
        market research to support that procurements were awarded in the
        best interest of the government.

        Without establishing specific requirements and guidance for the
        extent of market research and supporting documentation, as well as
        providing sufficient oversight to ensure compliance, DHS could
        not be certain that it obtained the greatest overall benefit in
        response to a procurement requirement. Consequently, the
        government may not have received the best possible value on
        goods and services acquired.

        Acquisition Planning

        The DHS components we reviewed either did not prepare or could
        not provide the required acquisition planning documentation for
        some procurements awarded in fiscal year 2007. According to the
        FAR, acquisition planning is the process by which the efforts of all
        personnel responsible for an acquisition are coordinated and
        integrated into a comprehensive plan for fulfilling an agency’s
        needs in a timely manner and at a reasonable cost. It entails
        developing the overall strategy for managing an acquisition.
        FAR 7.1 requires that agencies perform acquisition planning and
        market research to promote and provide for:

            x   Procurement of commercial items or nondevelopmental
                items to the maximum extent practicable; and


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 11
            x   Full and open competition; or competition to the maximum
                extent practicable, with due regard to the nature of the
                supplies or services to be acquired.

        The Department of Homeland Security Acquisition Manual
        requires DHS to prepare a written acquisition plan for
        nondevelopmental acquisitions valued greater than or equal to $10
        million. One exception is for research and development
        procurements valued greater than or equal to $5 million, which
        also require a written acquisition plan. For all other acquisitions
        valued less than $10 million, entry of information into the Advance
        Acquisition Plan Database satisfies the written acquisition plan
        requirement.

        The Advance Acquisition Plan is a plan of all anticipated
        procurements, including interagency agreements, blanket purchase
        agreements, and task orders greater than $100,000 for the
        upcoming fiscal year. It contains the integrated and coordinated
        efforts of all relevant acquisition personnel in determining
        requirements, financing, strategic planning, small business
        considerations, technical data requirements, contracting, and
        contract administration.

        Ten noncompetitive procurements in our sample required a written
        acquisition plan; however, 1 of the 10 procurements did not have
        one. This instance involved a fixed-price services contract valued
        at $20.7 million for aircraft ground servicing equipment; this
        contract had not been competed. The basis for the noncompetition
        was that the contractor was the only vendor that had the
        specialized equipment capable of performing the repairs or
        structural inspections. Although the contracting officer stated that
        an acquisition plan had been prepared, a copy could not be
        produced. In addition, supporting documentation for market
        research, a key component of acquisition planning, was not
        included in the file.

        Further, component personnel could not provide us with advance
        acquisition plans for 31 of 64 noncompetitive procurements
        awarded in fiscal year 2007 that required them. For example, one
        procurement was a $5.9 million contract for operations support
        services for the National Operation Center’s monitoring and
        identification of incidents and threats. We requested a copy of the
        Advance Acquisition Plan, but it was never provided.


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 12
              We attribute this apparent lack of planning and documentation to
              previously discussed challenges in maintaining a knowledgeable
              acquisition workforce. In response to our concern, one contract
              official countered that acquisition plans may not have been needed
              in some cases. Others stated that efforts have been made to
              improve acquisition planning since fiscal year 2007.

              Competed Procurements

              We also reviewed 38 procurement files for contracts awarded
              competitively in fiscal year 2007 with a reported value of $348
              million. We reviewed these procurements to determine whether
              the competitive procurements were appropriately awarded and to
              confirm the accuracy of the FPDS-NG entries. We reconciled the
              “Extent Competed” data category with the information in the
              procurement files. This review confirmed that the competed
              procurements were not always appropriately offered and awarded.

              Similar to the noncompetitive procurements, 21 of the 38
              competed awards were missing or did not have adequate
              documentation showing compliance with departmental or federal
              acquisition regulations. Our analysis of the competed files showed
              that 15 awards did not have sufficient evidence of market research,
              7 did not have adequate acquisition planning documentation, and 2
              did not accurately reflect the amount of competition that actually
              took place.

              Summary

              Our review of 120 contracts included 82 noncompetitive
              procurements with an estimated value of over $417 million, and 38
              procurement files for contracts awarded competitively with a
              reported value of $348 million. As detailed in Appendix D,
              multiple files had discrepancies that demonstrated noncompliance
              with applicable laws and regulations.

Reporting on DHS Procurement Activities

              DHS did not capture adequate data to identify, assess, and report
              the extent to which its procurements were competed. DHS is
              among the executive branch agencies relying on the FPDS-NG for
              a wide range of information, including agency contracting actions,
              government-wide procurement trends, and how procurement
              actions support socioeconomic goals and affect specific

      DHS Contracts Awarded Through Other Than Full and Open Competition 

                           During Fiscal Year 2007 



                                    Page 13
        geographical areas and markets. FPDS-NG is the department’s
        only consolidated source for determining the level of competition
        in its procurements and reporting the information to the public and
        Congress.

        DHS contract data was not always accurately and completely
        entered into the FPDS-NG. FPDS-NG reports provided by OCPO
        in June 2008, show that DHS fiscal year 2007 procurement
        obligations totaled $12.3 billion. However, because some of the
        procurement information in FPDS-NG was either blank or
        incorrect, we could not determine whether procurement actions
        constituting approximately $1.2 billion (or 9.68%) of the total
        obligations reported for the year were competed.

        Although OCPO issued Acquisition Alert 07/13 in June 2007
        requiring that contracting officers ensure completeness and
        accuracy of competition data, the information in FPDS-NG was
        still incorrect for 14 and blank for 7 of the 120 competitive and
        noncompetitive procurements we reviewed. For example:

            x   Seven procurements did not contain a code for the extent of
                competition.
            x   Five procurements were entered as competed, but our
                review of the file revealed otherwise.
            x   Two procurements were entered as noncompeted, but our
                review of the files revealed that this was incorrect.
            x   Three procurements were entered as not available for
                competition; however, the files indicated that the awards
                should have been entered as not competed.

        We identified a number of other discrepancies when comparing
        FPDS-NG data with the contract files. Examples include
        inaccurate dollar estimates, product descriptions, award dates, and
        procurement identification numbers. Notably, one noncompetitive
        procurement for security system services was estimated at more
        than $22 million in FPDS-NG. After contacting the contracting
        officer to obtain supporting documentation for the contract award,
        we learned that the dollar amount had been entered erroneously
        into FPDS-NG and the procurement was actually valued at
        approximately $7,700. The contracting officer said that this error
        has since been corrected.

        Such FPDS-NG errors occurred because effective controls did not
        exist to ensure that procurement data was entered completely and

DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 14
                           accurately. For example, FPDS-NG did not contain a validation
                           feature requiring completion of all data fields, such as the extent
                           competed for certain contract actions. Thus, users entering data
                           into the system may easily overlook some data fields. In addition,
                           one contracting official stated that FPDS-NG sometimes will not
                           accept certain data inputs and there are some inconsistencies with
                           the system. GAO previously reported that OCPO did not have
                           sufficient enforcement authority to ensure components took
                           recommended corrective actions, which may have contributed to
                           noncompliance with Acquisition Alert 07/13 to address incomplete
                           competition data.2

                           One responsible official for FPDS-NG indicated data errors often
                           occur due to incorrect entry by agency contract personnel. In
                           addition, DHS components have indicated a need for additional
                           training on FPDS-NG requirements. One contracting official
                           noted that contract staffs need to be reeducated to learn FPDS-NG
                           data entry requirements while another believed FPDS-NG to be
                           more complicated than necessary.

                           Inaccurate and incomplete user data entry compromised FPDS­
                           NG’s usefulness to the department. Without a means to validate
                           and ensure the integrity of the FPDS-NG data, the department
                           cannot rely on the system to accurately identify, collect, and report
                           on its competition in contracting. Obstacles to transparency in
                           procurement spending can also erode taxpayer confidence that
                           contracts are awarded in the best interest of the government. DHS
                           has taken steps to comply with Office of the Federal Procurement
                           Policy guidance, dated May 9, 2008, that requires government
                           agencies to develop a plan for improving the quality of acquisition
                           data entered into the FPDS-NG. According to DHS officials, this
                           guidance has been implemented in the form of data quality review
                           plans developed by each component, with support from the
                           Acquisition Oversight and Strategic Support Branch.




2
 Department of Homeland Security: Progress and Challenges in Implementing the Department’s Acquisition
Oversight Plan, GAO-07-900, June 2007

                  DHS Contracts Awarded Through Other Than Full and Open Competition 

                                       During Fiscal Year 2007 



                                                   Page 15
Recommendations
        We recommend that the DHS Chief Procurement Officer, in
        coordination with DHS component heads of contracting activity:

        Recommendation 1: Strengthen controls and procedures to
        enforce revisions of the Department of Homeland Security
        Acquisition Manual related to planning and justifying other than
        full and open competition. This should address the identified
        vulnerabilities regarding the levels of planning and documentation
        needed to support noncompeted acquisitions.

        Recommendation 2: Coordinate with the Office of the Chief
        Human Capital Officer to develop a strategy that will ensure
        successful implementation of the components’ Acquisitions
        Workforce Human Capital and Succession Plan for recruiting and
        retaining an experienced, knowledgeable acquisitions workforce.

        Recommendation 3: Align the human resources needed to
        oversee the components’ acquisition practices and ensure that the
        components comply with all applicable laws and regulations. This
        includes establishing requirements on the frequency and level of
        the oversight reviews to be conducted.

        Recommendation 4: Provide guidance on conducting market
        research to support procurements including, at a minimum, roles
        and responsibilities, levels of detail and analysis needed, periodic
        updates for recurring acquisitions, and data retention requirements.

        Recommendation 5: Establish a content checklist template that
        includes standard minimum requirements to ensure completeness,
        accuracy, and consistent organization of contract files among
        components.

        Recommendation 6: Further evaluate the two Small Business
        Administration 8(a) sole source contracts discussed in the report to
        determine if they need to be re-awarded to meet the provisions of
        law and regulations.

        Recommendation 7: Develop a strategy to measure that the
        implementation of the components’ data quality review plans has
        resulted in the improvement of the completeness and accuracy of

DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 16
        procurement data entered into the Federal Procurement Data
        System – Next Generation, as well as consistent reporting among
        components.


Management Comments and OIG Analysis
The Chief Procurement Officer concurred with all seven of the
recommendations in the report. The department will use the findings and
recommendations to continue to improve the policies, procedures, and
controls with respect to other than full and open competition.

OCPO provided technical comments as well as information regarding the
progress the department has made overall in its competitive practices, as
evidenced by its success in achieving improved annual competition
results. In addition, OCPO provided documentation on behalf of the U.S.
Coast Guard and U.S. Customs and Border Protection, requesting that we
re-evaluate some of the specific deficiencies noted for the sample
procurements. Where appropriate, we updated the report with this
information. The changes do not materially impact the message, findings,
or examples we used in the audit report.

OCPO noted that efforts are underway to address most of the
recommendations made within the draft report. Specific responses to each
recommendation are provided below.

Management Comments to Recommendation 1

OCPO concurs. OCPO noted that the department has already
strengthened controls and procedures to enforce revisions of the
Department of Homeland Security Acquisition Manual related to planning
and justifying other than full and open competition. This should address
vulnerabilities we identified regarding the levels of planning and
documentation needed to support noncompeted acquisitions.

Additionally, OCPO’s oversight functions include reviews of the
components' acquisition planning documents, sole source justifications,
and other administrative aspects of the contract actions. A special review
of DHS-wide sole source justifications is underway to determine the level
of compliance with current acquisition regulations in this area. The results
of component oversight reviews and special reviews are submitted to
component leadership to assist them in targeting training opportunities and
process enhancements.


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 17
OIG Analysis: Dependent upon the thoroughness and frequency of the
component oversight reviews and special reviews, these activities should
assist the component leadership in targeting training opportunities and
process enhancements. This recommendation is resolved, but will remain
open until OCPO provides more details and documentation on the results
of the reviews.

Management Comments to Recommendation 2

OCPO concurs. OCPO developed an acquisition workforce human capital
plan and a National Defense Authorization Act-mandated succession
management plan. OCPO provided these documents to the DHS Office of
the Chief Human Capital Officer for use in consolidated plans. Since the
Office of the Chief Human Capital Officer has primary responsibility for
human capital and succession planning, OCPO concurs that a strategy to
monitor and measure the components' implementation of the plans should
be developed; however, OCPO believes that the Office of the Chief
Human Capital Officer is the lead DHS office for this effort.

OIG Analysis: We adjusted the recommendation based on clarification in
OCPO’s response that, while it is responsible for developing acquisition
workforce human capital and succession plans, the DHS Office of the
Chief Human Capital Officer is the lead in monitoring and measuring the
plans’ effectiveness. OCPO should coordinate with the Office of the
Chief Human Capital Officer to develop a strategy that will ensure
successful implementation of the components’ Acquisition Workforce
Human Capital and Succession Plan for recruiting and retaining an
experienced, knowledgeable, acquisition workforce. This
recommendation is resolved and will remain open until OCPO provides an
approach to coordinating with the Office of the Chief Human Capital
Officer in this regard.

Management Comments to Recommendation 3

OCPO concurs. OCPO noted that this action has already been completed
and implemented. The OCPO oversight branch currently has a staff of
fourteen senior subject matter government experts with in-depth
knowledge and experience in the areas of acquisition, procurement,
contract pricing, and auditing/Inspector General support. OCPO’s annual
oversight program plan delineates the oversight and support functions
planned for the year, commensurate with the personnel available to
perform them. The program plan also defines the component, special, and
follow-up reviews scheduled, as well as the support function and plans for
addressing any prior year backlog activities.

DHS Contracts Awarded Through Other Than Full and Open Competition
                     During Fiscal Year 2007


                             Page 18
OIG Analysis: We have reviewed OCPO’s annual oversight program
plan. The document provides sufficient evidence of oversight of the
components’ acquisition practices to ensure that they comply with all
applicable laws and regulations. As such, this recommendation is now
resolved and closed.

Management Comments to Recommendation 4

OCPO concurs. OCPO responded that action has been taken to resolve
this recommendation. In 2009, the OCPO's Acquisition Policy and
Legislation Branch issued a draft interim DHS Market Research Guide for
comment. The interim guide was adapted from the DHS Office of
Procurement Operating Procedure 203, "Conducting Market Research"
(July 2008) and relevant portions of Procurement Operating Procedure
106, "Contacts with Industry" (July 2008). It provides thorough coverage
of market research and has been well received by DHS components.
Disposition of Component comments was completed in late April 2009.
The guide is scheduled to be issued in final form as an Appendix to the
Department of Homeland Security Acquisition Manual, Chapter 3010, by
July 2009.

OIG Analysis: Once final, OCPO’s actions should sufficiently address
the need for guidance on conducting market research to support
procurements including, at a minimum, roles and responsibilities, levels of
detail and analysis needed, periodic updates for recurring acquisitions, and
data retention requirements. This recommendation is resolved, but will
remain open until we have reviewed the final DHS Market Research
Guide.

Management Comments to Recommendation 5

OCPO concurs in principal with the recommendation to have content
checklists, but believes that such checklists should be developed at the
component level to assure they meet the specific needs of each
component. OCPO develops and provides through the Department of
Homeland Security Acquisition Manual and other policy issuances, a
variety of templates, standard formats, and other department-wide tools to
assist the acquisition community. However, OCPO has not established
department-wide checklist content and contract file requirements
standards because it believes that to do so would be unnecessarily
repetitive of the FAR. OCPO will, however, issue an Acquisition Alert
reminding DHS components of FAR and Department of Homeland
Security Acquisition Manual requirements and highlighting the options

DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 19
(e.g., through contract writing systems and subscriptions) available for
developing, maintaining, and using standard checklists. OCPO will also
make available from the component oversight reviews that have been
performed any identified best practices in the area of contract file
checklists.

OIG Analysis: OCPO’s actions are responsive to the recommendation.
OCPO’s Acquisition Alert reminder and efforts to share identified best
practices will promote completeness, accuracy, and consistent
organization of contract files among components. This recommendation is
resolved, but will remain open until we have obtained and reviewed the
Acquisition Alert and examples of best practices shared to supplement that
alert.

Management Comments to Recommendation 6

OCPO concurs with this recommendation and the two Small Business
Administration 8(a) sole source contract evaluations have been completed.
OCPO has determined that there is no need for these procurements to be
re-awarded. Based upon a recent review of these files, OCPO has
determined that these procurement actions were in general compliance
with FAR requirements. OCPO will remind DHS personnel about the
need to reengage the Small Business Administration whenever a proposed
contract action includes terms that vary significantly from an original offer
letter.

OIG Analysis: OCPO’s actions will satisfy the intent of this
recommendation. The recommendation is resolved, but will remain open
until OCPO provides the specific plans and resulting products for actions
taken for reminding DHS personnel of the need to reengage the Small
Business Administration whenever a proposed contract action includes
terms that vary significantly from an original offer letter, as well as
documented analysis of the two procurements in question.

Management Comments to Recommendation 7

OCPO concurs. OCPO noted that this action has already been completed
and implemented. In accordance with Office of Federal Procurement
Policy guidance, each DHS component submitted a quality plan to OCPO
for validating their respective fiscal year 2008 FPDS-NG data, including
certifying the accuracy rate for that data. In June 2009, OCPO provided a
certified accuracy rate to the Office of Federal Procurement Policy for the
department's fiscal year 2008 FPDS-NG data.



DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 20
In addition, OCPO is currently conducting a special oversight review to
determine the extent to which the department’s components have
implemented their FPDS review processes in accordance with their
submitted quality plans, and to identify best practices for improving the
FY 2009 reviews.

OIG Analysis: OCPO’s actions will be sufficient to ensure the
components’ data quality review plans have resulted in complete and
accurate procurement data entered into the FPDS-NG, as well as
consistent reporting among components. This recommendation is
resolved, but will remain open until we have reviewed the quality plans
provided and the review plan and final results from the 2009 special
review.




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2007 



                              Page 21
Appendix A
Purpose, Scope, and Methodology

                              On December 26, 2007, the President signed into law as Public
                              Law 110-161, the Consolidated Appropriations Act, 2008,
                              Division E—Department of Homeland Security Appropriations.
                              Section 539 directs the OIG to review the department’s contracts
                              awarded during fiscal year 2007, through other than full and open
                              competition to determine compliance with applicable laws and
                              regulations.

                              To meet the requirements of this legislative mandate, we reviewed
                              applicable federal laws and regulations, as well as DHS- and
                              component-specific guidance to identify requirements for
                              noncompetitive contract awards. We also examined prior audit
                              reports to identify related work in this regard. We reviewed DHS
                              procurements in fiscal year 2007 to determine whether:

                                  x    Selected components’ justifications for noncompetitive
                                       procurement awards contained all required elements and
                                       were appropriately approved; and
                                  x    DHS has sufficient policies, procedures, or management
                                       controls in place to ensure that acquisitions are
                                       appropriately awarded and accurately reflect the extent of
                                       competition that takes place.

                              We sampled procurement files for three of eight DHS procurement
                              offices. We selected for review the procurement offices with the
                              highest estimated dollar value of contracts awarded through other
                              than full and open competition, as reported in FPDS-NG. Our
                              sample covered procurement offices within U.S. Customs and
                              Border Protection, the U.S. Coast Guard, and the DHS Office of
                              Procurement Operations, which is responsible for acquisitions by
                              the Office of the Secretary and the U.S. Citizenship and
                              Immigration Services. We excluded from our sample the
                              Transportation Security Administration, which we covered in other
                              recent audit work.3

                              We reviewed a judgmental sample of 120 procurement files, with
                              approximately 40 files from each selected component. Of the 120
                              procurement files, we selected 79 that FPDS-NG indicated were
                              awarded through other than full and open competition. To
                              determine whether DHS acquisitions are awarded and reported as
                              required, we reviewed 34 procurement files that were identified in
                              FPDS-NG as competitively awarded, and 7 with a blank “extent
                              competed” entry.

3
    TSA Single Source (Noncompetitive) Procurements, OIG-08-67, June 2008.

                    DHS Contracts Awarded Through Other Than Full and Open Competition 

                                         During Fiscal Year 2007 


                                                      Page 22
Appendix A
Purpose, Scope, and Methodology


                    We reviewed the procurement files to determine whether they
                    contained the documentation needed to justify the contract awards.
                    Specifically, we determined whether they contained adequate
                    market research, acquisition plans appropriate to the dollar values
                    of the awards, and proper justifications and approvals for
                    procurements that were awarded noncompetitively. We also
                    verified the accuracy of “extent competed” entries in FPDS-NG,
                    confirming that documentation in the procurement files supported
                    whether or not competition had occurred. Because there is no
                    assurance that the judgmental sample is representative of the entire
                    universe, the results should not be projected to all DHS
                    procurements.

                    To determine whether DHS has sufficient policies, procedures, and
                    management controls in place to ensure that acquisitions were
                    awarded as required and accurately reflect the extent of
                    competition reported, we interviewed DHS and General Services
                    Administration officials. We also interviewed the DHS
                    Competition Advocate, the Acting Director of the Acquisition
                    Oversight Team, the FPDS-NG Program Director, and the DHS
                    FPDS-NG specialist. To identify the challenges that DHS’
                    procurement staff face in awarding acquisitions of best value to the
                    government, we also interviewed contracting officials and
                    employees at each location visited. We reviewed internal controls
                    pertinent to our objectives.

                    We conducted our fieldwork between October and December of
                    2008 at contracting offices in the following locations:
                    Washington, DC; Norfolk, Virginia; Elizabeth City, North
                    Carolina; Burlington, Vermont; and Indianapolis, Indiana. We
                    conducted this performance audit according to generally accepted
                    government auditing standards. Those standards require that we
                    plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objectives. We believe the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objectives.




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 23
Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 24 

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 25

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 26

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 27

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 28

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 29

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 30

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 31

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 32

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 33

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 34

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 35

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 36

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 37

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 38

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 39

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 40

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 41

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 42

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 43

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 44

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 45

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 46

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2007 



                                          Page 47

Appendix C
Federal Acquisition Regulation Approval Requirements for Justifying
the Use of Other Than Full and Open Competition

 Federal Acquisition Regulation Approval Requirements for Justifying the Use of Other
                           Than Full and Open Competition

   Procurement Estimated Value                         Signatures Required Before Award




        Not exceeding $550,000                                 Contracting officer




                                             Procuring activity competition advocate, head of the
     Exceeding $550,000, but not
                                             procuring activity (or qualified designee), or senior
       exceeding $11.5 million
                                               procurement executive of the agency designated




   Exceeding $11.5 million, but not
 exceeding $57 million ($78.5 million Head of the procuring activity (or qualified designee)
      for the U.S. Coast Guard)




    Exceeding $57 million ($78.5
                                               Designated senior procurement executive of the
   million for the U.S. Coast Guard)
                                                                   agency




 Source: FAR Subpart 6.304




                DHS Contracts Awarded Through Other Than Full and Open Competition
                                     During Fiscal Year 2007


                                             Page 48
Appendix D
Summary of Deficiencies with Procurement Activities

                                                         DHS Components Reviewed4
                                                       U.S. Customs U.S. Citizenship              Office of the
                                       U.S.
                                                        and Border  and Immigration                Secretary          Total
                                    Coast Guard
                                                        Protection      Service
 Procurements Reviewed
  Procurements Awarded
Through Other Than Full and              29                  28                   8                    17              82
     Open Competition
  Procurements Awarded
   Through Competition                   15                  12                   5                     6              38
     Total Number of
      Procurements
                                         44                  40                  13                    23             120
    Deficiencies Identified
Files that do not contain a
required written justification
for noncompetitive award.                 2                   0                   0                     1              3

Required written
justifications that do not
contain sufficient facts and              2                   6                   0                     2              10
rationale to support
noncompetitive award.
Required justifications
lacking the appropriate
official’s approval for                   1                   5                   0                     1              7
noncompetitive award.
Market research not
conducted for noncompeted                 1                   8                   0                     2              11
procurements
Sufficient documentation to
support the market research
described in the file for                19                  10                   7                    10              46
noncompeted procurements
not provided.
Files did not contain either
the required Acquisition Plan
or Advance Acquisition Plan              16                  10                   1                    13              40
(for both competed and
noncompeted procurements)
Procurement files had to be
reconstructed (for both
competed and noncompeted
                                          0                   0                   0                     2              2
procurements)




4
 The DHS Office of Procurement Operations is responsible for supporting acquisitions by the Office of the Secretary
and the U.S. Citizenship and Immigration Service.

                   DHS Contracts Awarded Through Other Than Full and Open Competition 

                                        During Fiscal Year 2007 



                                                      Page 49 

Appendix E
Major Contributors to this Report

                     Patrick O’Malley, Director
                     Michael Talevi, Audit Manager
                     Irene Aultman, Senior Auditor
                     Gregory Crissey, Program Analyst
                     Amanda Beisel, Program Analyst
                     Melissa Jones, Program Analyst
                     Steffanie Moore, Program Analyst
                     Ashley Smith, Program Analyst
                     John Chamberlain, Management and Program Clerk
                     Gary Alvino, Independent Referencer




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2007 



                                           Page 50
Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      DHS Acting Chief Procurement Officer
                      DHS Competition Advocate
                      Director Office of Procurement Operations
                      DHS Component Liaison, CBP
                      DHS Component Liaison, CIS
                      DHS Component Liaison, Office of the Secretary
                      DHS Component Liaison, USCG

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2007 



                                           Page 51 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
